     DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General

                                                                           Office of Audit Services, Region VI
                                                                           1100 Commerce Street, Room 632
                                                                           Dallas, TX 75242

November 7, 2011



Report Number: A-06-11-00033

Ms. Debra Hamilton
Director
Bossier Office of Community Services
700 Benton Road
Bossier City, LA 71171

Dear Ms. Hamilton:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Limited Scope Review at Bossier Office of
Community Services. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-11-00033 in all
correspondence.

                                             Sincerely,


                                             /Antonio Wilkinson for/
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Debra Hamilton


Direct Reply to HHS Action Official:

Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U. S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
AT BOSSIER OFFICE OF COMMUNITY
            SERVICES




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-06-11-00033
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Bossier Office of Community Services, Inc. (BOCS), a nonprofit agency, operates Head Start
and Early Head Start programs that provide educational and support services to low-income and
disabled children from birth to 5 years of age at six locations in Bossier Parish, Louisiana.
BOCS is funded primarily through Federal Government grants. For program year 2011
(February 1, 2010, through January 31, 2011), OHS provided grant funds to BOCS totaling
$2,996,575. BOCS also receives other Federal funding.

OBJECTIVE

Our objective was to assess BOCS’s financial viability and capacity to manage and account for
Federal funds and to operate a Head Start program in accordance with Federal requirements.

SUMMARY OF FINDINGS

BOCS generally is financially viable and has the capacity to manage and account for Federal
funds and to operate a Head Start program in accordance with Federal requirements. However,
we identified a number of noncompliance issues. Specifically, BOCS:

        did not have a board of directors member with a background and expertise in fiscal
        management or accounting,

        did not promptly record bank deposits or transfers between accounts,

        had inaccurate equipment inventory records,

        did not consistently report capital assets in its financial statements and equipment
        inventory,


                                                i
        had inadequate policies and procedures related to the hiring of consultants, and

        did not use a current independent appraisal to establish the fair rental value of donated
        space and did not properly allocate the value of its central office.

These issues occurred because BOCS did not have adequate controls over its property and
financial management systems. As a result of the last issue noted above, BOCS claimed $48,996
in unallowable in-kind contributions.

RECOMMENDATIONS

We recommend that BOCS:

       implement policies and procedures to ensure that its board contains a member who has
       fiscal management or accounting background expertise,

       record all financial transactions promptly,

       update its equipment inventory records to ensure that they are accurate and implement
       policies and procedures to ensure that the equipment inventory records are maintained
       accurately,

       ensure that its inventory policies and procedures are consistent with its asset
       capitalization policy for financial statement purposes,

       implement consultant policies and procedures that include requirements to use a selection
       process to secure the most qualified individual available and to ensure that the fee is
       reasonable, and

       adjust the value of its donated space based on current independent appraisals and allocate
       the value of its central office according to its cost allocation plan.

BOSSIER OFFICE OF COMMUNITY SERVICES COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, BOCS concurred with three of our findings and
described its corrective action plans to address them. However, BOCS did not agree with our
findings related to board members’ qualifications, consultant policies and procedures, and in-
kind valuation and reporting. BOCS provided an independent appraisal of the fair rental value of
its central office along with its comments. We used this appraisal to revise our calculation of the
unallowable in-kind contributions. Nothing in BOCS’s comments caused us to change any of
the other findings or recommendations. BOCS’s comments are included in their entirety as the
Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Head Start Program ...............................................................................................1
              Bossier Office of Community Services, Inc .........................................................1
              Federal Requirements ...........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................1
               Objective ...............................................................................................................1
               Scope .....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          BOARD MEMBERS’ QUALIFICATIONS ....................................................................3

          FINANCIAL SYSTEMS ..................................................................................................3

          EQUIPMENT INVENTORY RECORDS........................................................................4

          EQUIPMENT INVENTORY POLICIES AND PROCEDURES ....................................4

          CONSULTANT POLICIES AND PROCEDURES.........................................................4

          IN-KIND VALUATION AND REPORTING .................................................................5

          RECOMMENDATIONS ..................................................................................................5

          BOSSIER OFFICE OF COMMUNITY SERVICES COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................6

APPENDIX

          BOSSIER OFFICE OF COMMUNITY SERVICES COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start program. In fiscal year (FY)
2010, Congress appropriated $7.2 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Bossier Office of Community Services, Inc.

Bossier Office of Community Services, Inc. (BOCS), a nonprofit agency, operates Head Start
and Early Head Start programs that provide educational and support services to low-income and
disabled children from birth to 5 years of age at six locations in Bossier Parish, Louisiana.
BOCS is funded primarily through Federal Government grants. For program year (PY) 2011
(February 1, 2010, through January 31, 2011), OHS provided grant funds to BOCS totaling
$2,996,575. BOCS also receives other Federal funding.

Federal Requirements

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant-
related financial data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess BOCS’s financial viability and capacity to manage and account for
Federal funds and to operate a Head Start program in accordance with Federal requirements.




                                                1
Scope

We performed this review based on a request from OHS. We did not perform an overall
assessment of BOCS’s internal control structure. We reviewed only those internal controls
directly related to our audit objective. Our review period was BOCS’s PY 2011.

We performed our fieldwork at BOCS’s administrative office in Bossier City, Louisiana, during
March and April 2011.

Methodology

To accomplish our objective, we:

        reviewed relevant Federal laws, regulations, and guidance;

        reviewed BOCS’s accounting, budgeting, personnel, procurement, property control, and
        financial reporting procedures and interviewed BOCS officials to gain an understanding
        of those procedures;

        reviewed Federal Government grant award documentation for PY 2011 to determine
        BOCS’s Head Start and Recovery Act funding;

        reviewed BOCS’s audited financial statements for calendar years 2007, 2008, and 2009;

        performed ratio analysis from the audited financial statements for calendar years 2007
        through 2009 to assess BOCS’s financial position;

        reviewed BOCS’s general ledger, timesheets, invoices, bank reconciliations, and other
        supporting documentation;

        reviewed BOCS’s property records and performed a physical inventory of 20 items at 2
        facilities;

        reviewed BOCS’s non-Federal share summary reports and supporting documentation for
        PY 2011; and

        reviewed the qualifications of BOCS’s board of directors and the board meeting minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2
                          FINDINGS AND RECOMMENDATIONS

BOCS generally is financially viable and has the capacity to manage and account for Federal
funds and to operate a Head Start program in accordance with Federal requirements. However,
we identified a number of noncompliance issues. Specifically, BOCS:

         did not have a board of directors member with a background and expertise in fiscal
         management or accounting,

         did not promptly record bank deposits or transfers between accounts,

         had inaccurate equipment inventory records,

         did not consistently report capital assets in its financial statements and equipment
         inventory,

         had inadequate policies and procedures related to the hiring of consultants, and

         did not use a current independent appraisal to establish the fair rental value of donated
         space and did not properly allocate the value of its central office.

These issues occurred because BOCS did not have adequate controls over its property and
financial management systems. As a result of the last issue noted above, BOCS claimed $48,996
in unallowable in-kind contributions.

BOARD MEMBERS’ QUALIFICATIONS

Pursuant to section 642(c)(1)(B) of the Head Start Act, the governing body of Head Start grant
recipients should have at least one member with a background and expertise in fiscal
management or accounting.

BOCS’s board of directors did not have a board member with a background and expertise in
fiscal management or accounting. This occurred because BOCS did not have policies and
procedures to ensure that an individual who had fiscal management or accounting background
expertise was appointed to the board. Therefore, the board of directors was not adequately
qualified to provide oversight on financial matters.

FINANCIAL SYSTEMS

Regulations (45 CFR § 74.21(b)(3)) state that grantees’ financial management systems must
provide effective control over and accountability for all funds, property, and other assets so that
recipients can adequately safeguard all such assets and assure that they are used solely for
authorized purposes.

BOCS did not record deposits or transfers between bank accounts in the accounting system as
they occurred. For example, in January 2011, BOCS made 10 deposits totaling $399,682 and 5
transfers totaling $166,459. BOCS did not record these transactions as they occurred. The

                                                 3
finance director stated that when he started working at BOCS, the bookkeeper was behind in her
work. To help her, the finance director recorded deposits and transfers between bank accounts in
the accounting system each month when the bank statements arrived. Thus, BOCS’s general
ledger did not always reflect the correct checking account balances. In addition, because some
transactions were recorded in bulk and did not show the dates of the individual transactions, the
general ledger did not provide an accurate trail of cash deposits and transfers. As a result, BOCS
faced an increased risk that loss or theft of funds could have occurred and not been detected in a
timely manner.

EQUIPMENT INVENTORY RECORDS

Regulations (2 CFR § 215.34) state that Federal grantees’ equipment records should be
maintained accurately and should include the location of the equipment.

While BOCS’s equipment inventory records included location fields, those fields were
sometimes inaccurate. Specifically, during a physical inventory of 20 items at 2 locations, 2
instruments used for hearing tests with acquisition costs totaling $1,470 were not in the locations
indicated on the equipment inventory records. Additionally, we could not locate seven items
with acquisition costs totaling $12,141. These items consisted of kitchen equipment, computers,
and playground equipment. These errors occurred because BOCS did not have adequate policies
and procedures to ensure that its inventory records were accurate.

EQUIPMENT INVENTORY POLICIES AND PROCEDURES

Regulations (2 CFR part 230, Appendix B, 15(a)(2)) state that equipment is nonexpendable,
tangible personal property having a useful life of more than 1 year and an acquisition cost that
equals or exceeds the lesser of the capitalization level established by the nonprofit organization
for financial statement purposes or $5,000.

BOCS’s equipment inventory included only assets with an acquisition cost of $5,000 or more.
However, for financial statement purposes, it capitalized assets with an acquisition cost of $500
or more. Thus, not all capital assets reported on its financial statements were included in its
equipment inventory.

CONSULTANT POLICIES AND PROCEDURES

Regulations (2 CFR part 230, Appendix B, paragraph 37, (b)(7)) state that in determining the
allowability of costs of consultant services, the qualifications of the individual rendering the
service and the fees charged are relevant. Additionally, regulations (45 CFR § 74.21) state that
grantees should maintain financial management systems that contain written procedures for
determining the reasonableness of costs.

BOCS did not have a written policy describing the selection process for securing the most
qualified individual available when selecting consultants. Further, BOCS had inadequate
policies and procedures for ensuring that fees were reasonable when it selected consultants.
BOCS’s consulting policy required competitive bids only for services expected to cost between

                                                 4
$500 and $2,000. In BOCS’s grant application for PY 2012 (February 1, 2011, through January
31, 2012), it budgeted $20,990 for consulting fees.

IN-KIND VALUATION AND REPORTING

Pursuant to 45 CFR § 1301.20, grantees are to provide 20 percent of the total cost of the program
through non-Federal share. Regulations (45 CFR § 74.23(h)(3)) state: “The value of donated
space shall not exceed the fair rental value of comparable space as established by an independent
appraisal of comparable space and facilities in a privately-owned building in the same locality.”

BOCS did not use a current independent appraisal to establish the fair rental value of in-kind
donated space claimed for PY 2011. BOCS obtained independent appraisals during 2010 but did
not properly adjust the amounts reported as non-Federal share to reflect the new appraisals.
Also, BOCS reported the full rental value of its central office as non-Federal share rather than
following its cost allocation plan and allocating only the percentage of the central office used by
Head Start and Early Head Start. As a result, BOCS claimed $48,996 in unallowable in-kind
contributions. However, we are not recommending repayment because BOCS had in-kind
contributions in excess of its required matching funds.

RECOMMENDATIONS

We recommend that BOCS:

       implement policies and procedures to ensure that its board contains a member who has
       fiscal management or accounting background expertise,

       record all financial transactions promptly,

       update its equipment inventory records to ensure that they are accurate and implement
       policies and procedures to ensure that the equipment inventory records are maintained
       accurately,

       ensure that its inventory policies and procedures are consistent with its asset
       capitalization policy for financial statement purposes,

       implement consultant policies and procedures that include requirements to use a selection
       process to secure the most qualified individual available and to ensure that the fee is
       reasonable, and

       adjust the value of its donated space based on current independent appraisals and allocate
       the value of its central office according to its cost allocation plan.




                                                 5
BOSSIER OFFICE OF COMMUNITY SERVICES COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, BOCS concurred with three of our findings and
described its corrective action plans to address them. However, BOCS did not agree with our
findings related to board members’ qualifications, consultant policies and procedures, and in-
kind valuation and reporting. BOCS provided an independent appraisal of the fair rental value of
its central office along with its comments. We used this appraisal to revise our calculation of the
unallowable in-kind contributions. Nothing in BOCS’s comments caused us to change any of
the other findings or recommendations. BOCS’s comments are included in their entirety as the
Appendix.

Board Members’ Qualifications

BOCS’s Comments

BOCS stated that three board members have a background and expertise in financial
management or accounting. BOCS stated that all three board members have an undergraduate
business degree and employment experience that qualifies them as fiscal management experts.

Office of Inspector General Response

The three board members’ undergraduate business degrees do not qualify them as financial
management experts. BOCS provided no information on their employment experience.

Consultant Policies and Procedures

BOCS’s Comments

BOCS stated that it has written policies and procedures to ensure the reasonableness, allocability,
and allowability of consultant costs. BOCS also stated that it utilizes the Area Occupational
Employment and Wage Estimates from the Bureau of Labor to ensure the reasonableness of the
costs. BOCS stated that it had reviewed the grant application for PY 2012 and that it did not find
a consulting fee budgeted for $20,990.

Office of Inspector General Response

BOCS’s policies and procedures require competitive bidding only for services expected to cost
between $500 and $2000. BOCS has no written policies or procedures describing the selection
process for securing the most qualified consultant available. Thus, BOCS’s policies and
procedures are inadequate. The budgeted consulting fees totaling $20,990 are included in the
“Training and Technical Assistance Plan” section of the grant proposal.




                                                6
In-Kind Valuation and Reporting

BOCS’s Comments

BOCS stated that it used a current independent appraisal to establish the fair rental value of
donated space, and it included the appraisal with its comments. BOCS also stated that, in its
opinion, the full rental value of the central office could be reported as non-Federal share because
only three small office spaces are not occupied by Head Start or Early Head Start staff. It further
stated that the staff members who use these three offices provide services to the community,
which includes Head Start families. BOCS also stated that all BOCS staff collaborate and
coordinate with each other to help meet the needs of the Head Start families, and, as such, all
space is utilized for Head Start services.

Office of Inspector General Response

The appraisal document BOCS provided with its comments states that the effective date of the
appraisal was January 25, 2011, and that the appraisal letter was dated June 30, 2011. We
reviewed BOCS’s in-kind contributions for PY 2011, which ended five months before the
appraisal was completed. Thus BOCS did not use the appraisal to calculate in-kind contributions
for PY 2011. However, we followed up with BOCS and obtained a copy of the full appraisal,
which we used to revise our calculation of the unallowable in-kind contributions.

In addition, BOCS is incorrect in asserting that the full rental value of its central office space
should be allocated to the Head Start and Early Head Start programs. Because BOCS operates
other, non-Federal programs in addition to the Head Start and Early Head Start programs, it
developed a cost allocation plan for allocating costs shared by its various programs. According
to the plan, BOCS allocates 55 percent of central office space and utilities costs to the Head Start
and Early Head Start programs. BOCS calculated the rate based on the central office square
footage used by each program.




                                                 7
APPENDIX
                                                   Page 1 of 3

APPENDIX: BOSSIER OFFICE OF COMMUNITY SERVICES COMMENTS
Page 2 of 3
Page 3 of 3
